GENERAL SERVICES ADMINISTRATION
   OFFICE OF INSPECTOR GENERAL

                    Recovery Act Report –
           Richard H. Poff and Huntington Building
                    Modernization Projects
    Review of PBS’s Major Construction and Modernization
        Projects Funded by the American Recovery and
                   Reinvestment Act of 2009
              Audit Number A090172/P/R/R11003

                     November 17, 2010
Date:           November 17, 2010

Reply to        R. Nicholas Goco
Attn of:        Deputy Assistant Inspector General
                For Real Property Audits (JA-R)

Subject:        Recovery Act Report – Richard H. Poff and Huntington Building
                Modernization Projects
                PBS’s Major Construction and Modernization Projects Funded by the
                American Recovery and Reinvestment Act of 2009
                Audit Number A090172/P/R/R11003

To:             Robert A. Peck
                Commissioner, Public Buildings Service (P)

As part of our oversight of the General Services Administration’s (GSA) American Recovery
and Reinvestment Act (Recovery Act) projects, we noted a matter which we believe warrants
your attention. We found that GSA awarded construction services for the Richard H. Poff and
Huntington Building modernization projects without adequate price competition. GSA disclosed
the Guaranteed Maximum Price in the Request for Proposals, thereby setting the bid amounts for
prospective bidders and effectively eliminating price competition for construction services.

Construction Services Were Awarded Without Adequate Price Competition

The contracts for the Richard H. Poff and Huntington Building modernization projects were
awarded as Construction Manager as Constructor (CMc) contracts with a Guaranteed Maximum
Price. This type of contract is initially awarded for pre-construction services 1 at a firm fixed
price with an option for construction phase services at a Guaranteed Maximum Price. The
Guaranteed Maximum Price is established at the time of contract award, and total pricing, for
both pre-construction and construction services, should be evaluated during the selection
process.

When the Requests for Proposals were posted to FedBizOpps in July 2009, GSA included the
Guaranteed Maximum Prices. The Guaranteed Maximum Price for the Poff project was
$42,000,000 and the Huntington Guaranteed Maximum Price was $12,500,000. (The
Guaranteed Maximum Price for the Poff project was later reduced to $39,000,000 via an
amendment to the request for proposals.) However, the pricing had limited support, as GSA did

1
  Pre-construction Phase Services include activities such as ensuring the design complies with applicable
regulations, codes, and standards as well as ensuring the constructability of the design.
not get an independent government estimate for the construction of either project as required by
the Federal Acquisition Regulation (FAR) 36.203. The Guaranteed Maximum Price for the Poff
project was based on an internal budget estimate using the feasibility study estimate of $28.9
million, and the Guaranteed Maximum Price for the Huntington project was based on opinions of
the engineering staff.

Although GSA used a competitive bid process, pricing for the construction options was not
based on competition. GSA received ten bids on the Poff modernization project, and four bids
on the Huntington project. The bids for pre-construction varied among the bidders; however the
bids for construction services were identical ($39,000,000 and $12,500,000, respectively). The
bids differed only with regard to how the total amount was allocated between the price
components of the Guaranteed Maximum Price 2 .

In November 2009, GSA awarded the contracts for both projects to the contractors with
proposals in the technical competitive range who had the lowest bids for pre-construction
services. However, pre-construction services comprise less than one percent of each overall
contract value. The CMc contract on the Poff project was awarded with a firm-fixed-price of
$225,000 for pre-construction services and a total value, including all options, of $51,430,910.
The contract for the Huntington project was awarded at a firm fixed price of $109,900 for pre-
construction services and a total contract value of $27,839,900. After further negotiations with
the two winning contractors, GSA exercised construction options for the Poff and Huntington
modernization projects in June 2010 for $39,900,000 and $14,851,219, respectively. Additional
options for both projects have yet to be exercised.

The price reasonableness memoranda for both contracts indicate that the technical proposals
were of greater importance than price. However, achieving fair and reasonable pricing is an
invariable requirement of Government contracting. The FAR Part 15, which governs contracting
by negotiation, notes that “normally, price competition establishes price reasonableness.” Since
the Guaranteed Maximum Price was not set through price competition, GSA has no assurance
that a fair and reasonable price was achieved.

Although a competitive process was used to select the contractors for these projects, the pricing
for the construction services was not based on competition and as a result, the contract awards
for the two projects were not in compliance with competition requirements. By establishing the
Guaranteed Maximum Price in the Request for Proposals, GSA eliminated cost or price as an
evaluation factor for substantial portions of the contract. As a result, GSA violated the
Competition in Contracting Act (CICA). In addition, GSA exceeded the FAR limits on project
price that may be provided in the solicitation. FAR 36.204 states, “advanced notices and
solicitations shall state the magnitude of the requirement in terms of physical characteristics and
estimated price range.” However, in this case, GSA provided the exact Guaranteed Maximum
Prices for the construction services options.




2
 A Guaranteed Maximum Price has three price components: an estimated cost of work, the contingency for the cost
of work, and the contractor’s fee.


                                                      2
Conclusion

Given this situation, we have concluded that GSA cannot exercise additional options on the Poff
and Huntington construction contracts without further violating CICA. Both projects include
additional options with pricing established by GSA. The Poff project has options for security
improvements at $7,632,168 and building code and life safety improvements at $4,573,742. The
Huntington project has options for additional Recovery Act work at $5,000,000, improvements
to interior finishes at $3,500,000, and for security improvements at $6,730,000. In addition,
GSA needs to establish management controls to ensure CMc contracts meet competition
requirements.

Recommendation

We recommend that the Commissioner of the Public Buildings Service:

    1) Refrain from exercising the remaining options on the Poff and Huntington modernization
       projects unless compliance with applicable laws is assured; and

    2) Develop and implement a system of management controls to ensure that contracts using
       the Construction Manager as Constructor (CMc) methodology meet competition
       requirements.

Management Comments

In its comments, management acknowledged the audit findings and concurred with the
recommendations (see Appendix A).


We appreciate the support that has been provided throughout this review. If you have any
questions about this memorandum, please contact me on (202) 219-0088.


Sincerely,


R. Nicholas Goco
Deputy Assistant Inspector General for Real Property Audits (JA-R)




                                              3
                    Recovery Act Report –
Richard H. Poff and Huntington Building Modernization Projects
    Review of PBS’s Major Construction and Modernization
        Projects Funded by the American Recovery and
                   Reinvestment Act of 2009
              Audit Number A090172/P/R/R11003

                   Management Comments




                             A-1
                    Recovery Act Report –
Richard H. Poff and Huntington Building Modernization Projects
    Review of PBS’s Major Construction and Modernization
        Projects Funded by the American Recovery and
                   Reinvestment Act of 2009
              Audit Number A090172/P/R/R11003

                   Management Comments




                             A-2
                                 Recovery Act Report –
             Richard H. Poff and Huntington Building Modernization Projects
                 Review of PBS’s Major Construction and Modernization
                     Projects Funded by the American Recovery and
                                Reinvestment Act of 2009
                           Audit Number A090172/P/R/R11003

                      Background, Objectives, Scope, and Methodology

Background

The Recovery Act provides GSA with $5.55 billion for its Federal Buildings Fund. In
accordance with the Recovery Act, the GSA Public Buildings Service (PBS) is using these funds
to convert Federal buildings into High-Performance Green Buildings as well as to construct
Federal buildings, courthouses, and land ports of entry. The Recovery Act mandated that $5
billion of the funds be obligated by September 30, 2010 and that the remaining funds be
obligated by September 30, 2011. The GSA Office of Inspector General (OIG) is conducting
oversight of the projects funded by the Recovery Act. One objective of this oversight is to
determine if PBS is planning, awarding, and administering contracts for major construction and
modernization projects in accordance with prescribed criteria and Recovery Act mandates.

Objectives

The objective of the OIG’s Recovery Act oversight is to determine if PBS is planning, awarding,
and administering contracts for major construction and modernization projects in accordance
with prescribed criteria and Recovery Act mandates.

Scope

The work for this report was performed between February and June 2010.

Methodology

To accomplish the objective we conducted site visits to the Mid-Atlantic Region, reviewed the
contract file and other pertinent project documents, met with project staff, and reviewed
applicable guidance and regulations.

We conducted this performance audit in accordance with generally accepted government
auditing standards except as noted below. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.




                                               B-1
                                 Recovery Act Report –
             Richard H. Poff and Huntington Building Modernization Projects
                 Review of PBS’s Major Construction and Modernization
                     Projects Funded by the American Recovery and
                                Reinvestment Act of 2009
                           Audit Number A090172/P/R/R11003

                      Background, Objectives, Scope, and Methodology


The planning for this review is based on the audit plan for oversight of the Recovery Act projects
as well as review guidance being applied to all Recovery Act projects. A separate guide was not
prepared for this project.

As this work was performed under the continuing oversight of all GSA Recovery Act projects,
management controls are currently under assessment. Only those management controls
discussed in the report have been assessed.




                                               B-2
                                 Recovery Act Report –
             Richard H. Poff and Huntington Building Modernization Projects
                 Review of PBS’s Major Construction and Modernization
                     Projects Funded by the American Recovery and
                                Reinvestment Act of 2009
                           Audit Number A090172/P/R/R11003

                                      Report Distribution


Commissioner, Public Buildings Service (P)

Regional Commissioner, Public Buildings Service (3P)

Director, Internal Control and Audit Division (BEI)

Assistant Inspector General for Auditing (JA, JAO)

Regional Inspector General for Investigations (JI-3)

Regional Inspector General for Audits (JA-3)

Assistant Inspector General for Investigations (JI)




                                               C-1
